                          CLOSEOUT FOR M94090029

       This case came to OIG on June 27, 1994, whenfo-                            the
                                             -
a                                     thet(-                            complainant)
called to complain to us about retaliation against her at her institution. In a letter
of September 1, 1994, she provided further details of her complaint. She alleged
that the institutional animal care and use committee (IACUC) at her university had
retaliated against her for filing a sex discrimination complaint against the office
manager in her department, who was the wife of a faculty member in the same
department as the committee chair. The committee's alleged retaliation consisted
of arbitrarily removing two animals that the complainant used for research and
placing them in the care of a zoo.

         The complainant purchased her animals under an NSF grant from the
-program                                      (m             entitled -"
)                                     Since the time that that grant was closed,
over ten years ago, she has not received any further NSF support. This grant is
the only NSF connection to this case. In reply to a query from the subject, NSF's
Office of General Counsel stated that upon purchase the animals belonged to the
university, not to NSF.

       The complainant's allegation raises issues about the integrity of the IACUC
at her university. These issues do not involve IACUC actions directly involving
any NSF proposal or award. The Office of .Protection from Research Risks
(OPRR) at the National Institutes of Health oversees IACUCs. NSF requires that
grantee organizations file assurances with OPRR that they will comply with Public
Health Service regulations governing IACUCs, and OPRR monitors compliance.
When OIG called the complainant to inform her that we were closing this case, we
suggested that her general concerns about the integrity of the IACUC at her
university would be more appropriately addressed to OPRR.

       There is no evidence or allegation that ;ither the alleged sex discrimination,
which involved unspecified "harassment" by an office manager, or the alleged
retaliation had any connection to an NSF proposal or award. OIG concluded that

                                     Page 1 of 2                              M94-29
                          CLOSEOUT FOR M94090029

these actions fell outside our jurisdiction.

      This case is closed and no further action will be taken.


cc:   Staff Scientist, Deputy AIG-Oversight, AIG-Oversight, IG




                                     Page 2 of 2
